<html>
<title> - THE AIR FORCE INSTITUTE OF TECHNOLOGY: AN INTERGOVERNMENTAL MODEL FOR TODAY'S MILITARY EDUCATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 THE AIR FORCE INSTITUTE OF TECHNOLOGY: AN INTERGOVERNMENTAL MODEL FOR 
                       TODAY'S MILITARY EDUCATION

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON FEDERALISM
                             AND THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2006

                               __________

                           Serial No. 109-240

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-620                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

               Subcommittee on Federalism and the Census

                   MICHAEL R. TURNER, Ohio, Chairman
CHARLES W. DENT, Pennsylvania        WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       PAUL E. KANJORSKI, Pennsylvania
VIRGINIA FOXX, North Carolina        CAROLYN B. MALONEY, New York
BRIAN P. BILBRAY, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     John Cuaderes, Staff Director
            Ursula Wojciechowski, Professional Staff Member
                         Juliana French, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2006....................................     1
Statement of:
    Bowlds, Major General Ted, Commander of the Air Force 
      Research Laboratory; Brigadier General Mark Matthews, 
      Commander of the Air Force Institute of Technology; Hon. 
      Kevin DeWine, Ohio State Senator; Dr. Daniel Curran, 
      president of the University of Dayton; Dr. Jay Thomas, vice 
      president of research and Dean of Graduate Studies at 
      Wright State University; and Dr. Elizabeth Downie, director 
      of the Dayton Area Graduate Studies Institute..............    10
        Bowlds, Major General Ted................................    10
        Curran, Dr. Daniel.......................................    37
        DeWine, Hon. Kevin.......................................    30
        Downie, Dr. Elizabeth....................................    52
        Matthews, Brigadier General Mark.........................    20
        Thomas, Dr. Jay..........................................    43
Letters, statements, etc., submitted for the record by:
    Bowlds, Major General Ted, Commander of the Air Force 
      Research Laboratory, prepared statement of.................    14
    Curran, Dr. Daniel,president of the University of Dayton, 
      prepared statement of......................................    39
    DeWine, Hon. Kevin, Ohio State Senator, prepared statement of    33
    Downie, Dr. Elizabeth, director of the Dayton Area Graduate 
      Studies Institute, prepared statement of...................    55
    Matthews, Brigadier General Mark, Commander of the Air Force 
      Institute of Technology, prepared statement of.............    22
    Schmidt, Hon. Jean, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................     7
    Thomas, Dr. Jay, vice president of research and Dean of 
      Graduate Studies at Wright State University, prepared 
      statement of...............................................    46
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4


 THE AIR FORCE INSTITUTE OF TECHNOLOGY: AN INTERGOVERNMENTAL MODEL FOR 
                       TODAY'S MILITARY EDUCATION

                              ----------                              


                        SATURDAY, JULY 29, 2006

                  House of Representatives,
         Subcommittee on Federalism and the Census,
                            Committee on Government Reform,
                                                        Dayton, OH.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
Carney Auditorium, National Air Force Museum, Wright-Patterson 
Air Force Base, 1100 Spaatz Street, Dayton, OH, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Present: Representatives Turner, Schmidt.
    Staff present: Juan Cuaderes, Staff Director, Ursula 
Wojciechowski, Professional Staff; Juliana French, Clerk.
    Mr. Turner. A quorum being present this hearing of the 
Subcommittee on Federalism and the Census will come to order. I 
want to welcome all of you to the subcommittee's oversight 
hearing entitled, ``The Air Force Institute of Technology: An 
Intergovernmental Model for Today's Military Education.'' I am 
pleased to have with us today my colleague, Congresswoman Jean 
Schmidt, who sits also on the Government Reform Committee with 
me. We are a subcommittee of the full Committee of Government 
Reform.
    Before we begin I want to thank all of you for 
participating and I want to also acknowledge the hard work that 
Congressman Hobson, who is not with us today, has done in 
ensuring that AFIT have very quality resources, quality 
facilities, and provide a quality education for supporting the 
Air Force and the Air Force's mission and the mission of DOD.
    We all know that Congressman Hobson has been a strong 
advocate of AFIT and we appreciate that some of the things that 
we are going to hear about today are the result of his hard 
work and accomplishments.
    Congresswoman Candace Miller and Congressmen Thad McCotter 
and Geoff Davis from Kentucky who had initially indicated that 
they were going to be attending had schedule changes. As you 
may all be aware, this hearing has changed and moved as a 
result of Congress being in session until 2 a.m. last night.
    I want to emphasize my sincere appreciation for Jean 
Schmidt being here seeing that the House adjourned at 2 a.m. as 
a result of passing a minimum wage hike and a State tax relief. 
As a result of our staying until the morning, we have lost a 
few members of the committee who do have an intent interest in 
what we are going to be talking about today which is the 
private/public partnership and the ways in which we can support 
Federal initiatives.
    The Air Force Institute of Technology is an establishment 
of immense value. It proudly provides the resources and 
expertise to advance Air Force research and technology at a 
reasonable cost to taxpayers. This morning's hearing is an 
opportunity to understand how AFIT interacts with Federal, 
State, and local governments to ensure continued support and 
success.
    The subcommittee will also explore the arrangement among 
the Ohio-based universities, AFIT, and the Air Force Research 
Laboratory. This cooperative effort espoused by the Dayton Area 
Graduate Studies Institute [DAGSI], creates a synergistic 
educational environment greater than the sum of the parts. We 
will examine how this cooperation maximizes utilization of 
research resources and educational expertise, enhances graduate 
education in the Air Force and in Ohio, and ultimately benefits 
the war fighter.
    Many of you know that the 2005 Defense Base Realignment and 
Closure Commission, or BRAC, targeted the Air Force Institute 
of Technology for closure in the Commission's most recent 
recommendations. During BRAC hearings last year, testimony was 
given advocating AFIT's numerous contributions. Collectively, 
the Air Force, Congress, State and local governments, and local 
universities convinced the BRAC Commission not to close AFIT.
    The 2005 BRAC selection criteria used by the Defense 
Department to make recommendations for the closure or 
realignment of military installations were as follows: The 
current and future mission capabilities and impact on 
operational readiness on DOD's total force; the availability 
and condition of land and facilities at existing and potential 
receiving locations; the ability to accommodate contingency, 
mobilization and future total force requirements; the cost of 
operations and the manpower implications; the extent and timing 
of potential costs and savings; the economic impact on existing 
communities; the ability of both existing and potential 
receiving communities infrastructure to support forces, 
missions and personnel; and finally, the environment impact.
    In publishing the final selection criteria, the Defense 
Department specifically stated that ``the Department must focus 
on the existing, demonstrated ability of a community to support 
its installation, especially as potential investment actions 
may not translate into reality.'' I am eager to hear today from 
our distinguished witnesses why AFIT must remain at Wright-
Patterson Air Force Base and what efforts have been made to 
meet the Commission's recommendations.
    We welcome remarks from our distinguished panelists. We 
will hear from Major General Ted Bowlds, Commander of the AFRL, 
and Brigadier General Mark Matthews, Commander of the AFIT. We 
will also hear from Ohio State Representative Honorable Kevin 
DeWine. Then we will hear from Dr. Dan Curran, President of the 
University of Dayton and Dr. Jay Thomas, Vice President of 
Research and Dean of Graduate Studies at Wright State 
University. Last, we will hear from Dr. Elizabeth Downie, 
Director of DAGSI.
    With that, I welcome my colleagues and we all look forward 
to your testimony. I now yield to my colleague Jean Schmidt for 
any opening remarks she may wish to make.
    [The prepared statement of Hon. Michael R. Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T5620.001
    
    [GRAPHIC] [TIFF OMITTED] T5620.002
    
    Ms. Schmidt. Thank you. Thank you, Mr. Chairman, for 
holding this very important hearing and for all of you 
panelists who have been waiting patiently for us to get here. 
As Chairman Turner noted, we were working on some extremely 
important issues in the wee hours of the morning in addition to 
raising the minimum wage and helping folks all across the 
spectrum in working to repeal the death tax so that farmers and 
other family businesses can keep their valued assets and a 
valued asset to the community.
    We also worked on a pension reform plan which I believe 
helps folks in the greater Dayton area and certainly helps 
folks in the greater Cincinnati area, most importantly Delta.
    Speaking of Delta, they are a great airline but sometimes 
you have a little mechanical issue and our flight that was 
supposed to take off at 6 a.m. took off at 7:30 a.m. so I am a 
little more tardy than I had hoped to be but arrived safe here.
    I especially want to thank my former colleague, Ohio House 
of Representatives Kevin DeWine for coming here on a Saturday 
morning and presenting testimony. We used to work together in a 
past life and I can tell the folks in his district you can't 
have a better champion for your southern Ohio valleys than 
Kevin DeWine.
    Mike Turner and I share Warren County. I am proud to share 
it with Congressman Turner because we worked well together on 
many, many issues. In fact, I have several constituents that 
actually work here on this base and I am pleased to work with 
him on this initiative.
    The Dayton and Cincinnati area with Wright-Patterson and 
the GE jet engine facilities in Evandale and Peebles, which is 
in my district, is a national leader in aerospace innovation 
and our highly educated work force keeps us at the forefront of 
the industry. The advancements made at these facilities have 
spawned many companies creating thousands of jobs and have 
helped keep the economy in southern Ohio in better shape than 
it is in other parts of our own State.
    The Air Force Institute of Technology is a true asset to 
the area and I am grateful it survived the BRAC process. With 
its innovative public and private funding and cooperation 
between Federal, State, and local governments it is the 
symbolism of how federalism has made America great. Again, I 
commend Chairman Turner for pulling an all-nighter with me and 
being brave enough to stay awake this morning and I look 
forward to all of your testimony.
    [The prepared statement of Hon. Jean Schmidt follows:]

    [GRAPHIC] [TIFF OMITTED] T5620.003
    
    [GRAPHIC] [TIFF OMITTED] T5620.004
    
    [GRAPHIC] [TIFF OMITTED] T5620.005
    
    Mr. Turner. Thank you, Congresswoman Schmidt.
    We will now start with our witness and each witness has 
kindly prepared written testimony which will be included in the 
record of this hearing. Witnesses will notice that there is a 
timer with a light on the witness table. The green light 
indicates that you should begin your remarks and the red light 
indicates that your time has expired.
    It is the policy of this committee that all witnesses be 
sworn in before they testify. If you would all please rise and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Please let the record show that all the 
witnesses have responded in the affirmative. I want to 
emphasize again my appreciation for each of you doing this. In 
addition to your written testimony and your statements today 
and the questions that we have, the importance of this hearing 
is that the testimony will be entered into the congressional 
record of this subcommittee. From my reading of your written 
testimony, and I know certainly from the experience of being in 
this community and the support AFIT and the DAGSI program, this 
is a model private/public partnership. It goes directly to one 
of the elements that the BRAC commission looked at as to a 
community support for its facility.
    It is a great opportunity for the research labs and for 
AFIT to again tell the story of their importance and their 
functions at Wright-Patterson Air Force Base. I just greatly 
appreciate your doing this and the opportunity for us to 
highlight this within the Government Reform Subcommittee. With 
that I will begin with you, General.

 STATEMENTS OF MAJOR GENERAL TED BOWLDS, COMMANDER OF THE AIR 
  FORCE RESEARCH LABORATORY; BRIGADIER GENERAL MARK MATTHEWS, 
COMMANDER OF THE AIR FORCE INSTITUTE OF TECHNOLOGY; HON. KEVIN 
DEWINE, OHIO STATE SENATOR; DR. DANIEL CURRAN, PRESIDENT OF THE 
    UNIVERSITY OF DAYTON; DR. JAY THOMAS, VICE PRESIDENT OF 
     RESEARCH AND DEAN OF GRADUATE STUDIES AT WRIGHT STATE 
 UNIVERSITY; AND DR. ELIZABETH DOWNIE, DIRECTOR OF THE DAYTON 
                AREA GRADUATE STUDIES INSTITUTE

             STATEMENT OF MAJOR GENERAL TED BOWLDS

    General Bowlds. Good morning, Mr. Chairman and members of 
the committee, Representative Schmidt. My name is Major General 
Ted Bowlds. I look forward for the opportunity to speak to you 
today. I am the Commander of the Air Force Research Laboratory 
and have the opportunity to lead a 5,400 person organization 
with a $1.4 billion budget in the discovery, development, and 
delivery of advanced technologies that ensure the battlefield 
superiority of the U.S. military forces. Our mission is greatly 
enhanced by the close collaboration with the Air Force 
Institute of Technology. Both organizations enjoy healthy 
support from the greater Dayton community.
    The Air Force Research Lab, AFRL, and the Air Force 
Institute of Technology, AFIT, have a 50-year history of 
collaborative activities and engagement motivated by a common 
interest in maintaining advancing technology superiority of the 
U.S. Air Force.
    The breadth and depth of cooperative activities is on the 
upswing. The increase in collaboration has been recently 
codified with the consolidation of 10 individual agreements and 
to a single corporate memorandum of agreement. Disagreement 
cleared the path for streamline access and resource sharing 
among AFIT and AFRL's numerous sites across the United States.
    Key elements of the agreement include joint development of 
personnel expertise and competencies and research areas of 
mutual interest and definition of the support required for 
major collaborative research programs and shared facilities.
    The agreement also includes regular review and highlighting 
of partnership accomplishments along with the identification of 
opportunities for multi-partner teaming with other 
organizations to accomplish research objectives. Overall the 
agreement solidifies the long-standing relationship and common 
goals that both organizations share and allows each 
organization to fully leverage our world class resources.
    AFRL and AFIT take advantage of multiple opportunities to 
leverage resources. A vital part of the collaboration is the 
inflow of AFIT graduates to AFRL upon completion of their basic 
and advanced degrees. This inflow of students brings program 
managers, scientists, and engineers in various stages of their 
career to work in AFRL thus providing a critical part of our 
work force.
    One hundred and seven new AFIT graduates were assigned to 
AFRL in the fiscal year 2005, a threefold increase from fiscal 
year 2003 is a trend that we would like to see continued. The 
exchange of personnel between AFIT and AFRL has not been a one-
way street. AFRL lab personnel have held adjunct faculty 
positions in AFIT, sponsored research, and served as advisers 
to AFIT on a wide-range of academic and research issues.
    AFRL currently holds 27 adjunct faculty appointments with 
AFIT. Three to seven courses are taught by these adjunct 
annually. These adjuncts provide guest lector participation and 
serve on many thesis committees. Additionally, AFIT students 
research supports AFRL research programs and AFIT faculty 
members develop research and education programs to support the 
AFRL community.
    The two groups co-share libraries and research facilities. 
Each organization has interest in enhancing collaboration by 
establishing a holistic approach including developing 
repeatable processes with specific goals that are assessed at a 
strategic partnership review on a regular basis.
    While AFIT and AFRL technology directorates have performed 
coordinated research programs for many years, AFIT and AFRL 
continue to seek increase in mutual benefits that can aid in 
our partnership.
    With regard to funding resources AFRL provides AFIT nearly 
$4M in annual research funding across our Technology 
Directorates. This amount has more than doubled over the past 
several years. In addition, the AFIT Research Support Fund 
agreement provides AFIT with resources that allow AFIT faculty 
and students to contribute to the Air Force basic research 
program. The agreement also facilitates new faculty startups 
and development of new areas of research.
    As part of that research each AFRL solicits thesis and 
dissertation topics of Air Force relevance for use by AFIT 
graduates. AFRL sponsored 60 plus in fiscal year 2005 and 2006 
research projects. For example, AFRL sponsored 33 theses, four 
dissertations involving the air domain, 14 theses, one 
dissertation in the space domain, 24 theses, five dissertations 
in the cyber domain, and four theses in the logistics and 
management.
    Average cost avoidance per thesis dissertation is about 
$118,000. AFRL and AFIT routinely share facilities. For 
example, AFRL uses 13 of AFIT's facilities and AFIT uses eight 
of AFRL's facilities this past year for various research 
efforts. AFRL and AFIT also share laboratory facilities on the 
AFIT campus providing 571,000 cost avoidance by eliminating 
duplicate journal subscriptions, computer support and 
facilities.
    Significant sharing of library and laboratory resources 
between AFRL and AFIT provide ongoing cost containment for both 
organizations. Participating institutions are the AFIT academic 
library and the AFRL Wright site technical information division 
comprised of the technical library and the technical editing 
groups.
    Both organizations encourage ad hoc usage of facilities and 
equipment on a non-interference basis with mutual agreed-upon 
support and incremental cost. AFRL and AFIT conduct key 
periodic events to stimulate constructive interaction between 
personnel. The most significant event called the Partnership 
Summit is an annual meeting between the AFIT Commandant and the 
Commander of the Air Force Research Lab to review activities, 
assess the progress of initiatives, and review the appropriate 
new initiatives.
    AFRL and AFIT also hold annual interchange meetings to 
provide AFRL researchers and AFIT faculty with orientation 
briefings, information about concurrent research thrust and new 
initiatives, opportunities for collaboration, and facilities 
tours.
    Additionally, Tech Days is an annual event designed for 
AFIT students to provide an overview of current AFRL 
technologies, research agendas, present thesis topic requests, 
and discuss science and engineering career management 
opportunities.
    A partnership working group composed of AFRL chief 
technologists, AFRL chief scientists, AFIT School of Deans and 
department heads or their representatives review these thesis 
topics and presentations, review personnel exchanges 
opportunities and identify opportunities for collaborative in-
house research initiatives and faculty sharing.
    AFIT and AFRL continue to develop third party and local 
community partnerships. One example is the DAGSI, the Dayton 
Area Graduate Studies Institute and Ohio Student Faculty 
Engineering Research Group. AFIT faculty collaborated on 35 
programs sponsored by DAGSI, most tied to AFRL topics.
    Finally, the Advanced Navigation Technology Laboratory has 
21 AFIT faculty members from three different departments with 
43 active projects and about 30 students with sponsorship from 
AFRL, NASIC, and other DOD agencies. Central themes are 
Inertial Navigation System Exploitation and Precision 
Navigation--anywhere, using anything. This will be critical to 
the Air Force's new Technology Vision to ``anticipate, find, 
fix, track, target, engage and assess anything, anytime, 
anywhere.''
    How does this benefit AFRL? By increasing inter-directorate 
collaboration, promoting external collaboration and, enhancing 
AFRL's in-house research capabilities. The program will also 
impact AFRL's Focused Long-Term Challenges. These are the 
fundamental research efforts that will provide the capabilities 
to the Air Force over the mid and long-term.
    Technology challenges being solved by ANT include vision-
based navigation, collision avoidance, vision-based control and 
stabilization, wide-field of view sensing-situational 
awareness, human supervision of time-critical control systems, 
agile micro vehicles, and cooperative path planning in 
adversarial environments.
    A new effort titled the AFIT/AFRL Center for Rapid Product 
Development is underway to allow graduate students to work on 
real Air Force operational problems in conjunction with AFRL 
scientists. Particular focus areas will be on rapid technology 
transition and product development cycle-time reduction.
    Students will learn the principles of project management 
and demonstrate the ability to develop and field new products 
and systems. This process merges AFIT's need to educate Airmen 
on key problems with AFRL's new Rapid Reaction Process to 
provide real-time solutions to urgent warfighter needs within 
18 months. Two pilot efforts are underway and are being 
successfully demonstrated today.
    The bottom-line is that AFRL and AFIT have a very effective 
partnership and are working to make it even greater. Both 
organizations have a critical role in creating the Air Force of 
the future, and together are solving future technological 
challenges.
    Thank you for the opportunity to share my thoughts on a 
vital teaming between AFIT, AFRL, and the greater Dayton 
community. I look forward to your questions.
    [The prepared statement of Major General Bowlds follows:]

    [GRAPHIC] [TIFF OMITTED] T5620.006
    
    [GRAPHIC] [TIFF OMITTED] T5620.007
    
    [GRAPHIC] [TIFF OMITTED] T5620.008
    
    [GRAPHIC] [TIFF OMITTED] T5620.009
    
    [GRAPHIC] [TIFF OMITTED] T5620.010
    
    [GRAPHIC] [TIFF OMITTED] T5620.011
    
    Mr. Turner. Thank you very much.
    General Matthews, I want to particularly thank you for 
preparing and attending today, especially recognizing the fact 
that you will be leaving AFIT on Monday. Thank you so much as 
you have so many other duties and issues that you are preparing 
for in the transition that you be present and spend some of 
your time here with us today.

          STATEMENT OF BRIGADIER GENERAL MARK MATTHEWS

    General Matthews. Thank you, sir. I would like to thank all 
the members for this opportunity to speak about the institution 
that has been an integral part of this country's air and space 
dominance for almost 90 years, the Air Force Institute of 
Technology, or AFIT.
    Despite its history and contributions, however, as was 
pointed out, at times some have questioned the need for a 
defense graduate school. It was shortly after assuming command 
of AFIT just over a year ago that I learned that the Base 
Realignment and Closure Commission's decision to review whether 
it would be most appropriate to align AFIT with the Naval Post-
Graduate School in Monterey or close it.
    While facing potential closure was not the way I would have 
chosen to start my new job, the review proved to be a great 
benefit as it affirmed the unparalleled value of AFIT in 
providing responsive defense focus education and research to 
not only the Air Force but all elements that provide for the 
security of our Nation including our sister services, coalition 
partners, and defense affiliated civilians.
    Quite simply, knowledge is power and it is knowledge that 
makes us the most powerful military in the world. Though 
validated, other challenges have loomed for AFIT. The cost of 
the ongoing war and modernization are forcing tough choices 
most prominently reflected and previously announced Air Force 
personnel cuts. AFIT, too, will have to adjust to these fiscal 
realities.
    This does not mean our Air Force leadership is not strongly 
committed to education. In April of this year Secretary of the 
Air Force Wynne and our Chief General Moseley issued a joint 
``Letter to Airmen'' where they stated ``to succeed, our 
expeditionary Air Force will need all the cultural, political, 
and technical skills available. One of the most effective ways 
to develop this knowledge is through advanced education.''
    In fact, AFIT is working with our headquarters to revamp 
the system by which we determine those competencies needed by 
our Airmen to include advanced education.
    In conjunction with this restructured requirements process, 
we at AFIT are also pursuing a fundamental change in our 
traditional business model as we seek to diversify the AFIT 
student population with more sister service, civilian, and 
coalition partner students. Not only does this provide our 
students a richer learning experience but sustains an 
educational capacity while the Air Force adapts to a smaller 
force size.
    Supporting this business transformation is an expanded AFIT 
research program. While AFIT has seen a doubling in its 
sponsored research over the last 5 years, thanks largely, as 
General Bowlds pointed out, with our special relationship with 
our neighbors in the Air Force Research Laboratory, I think for 
many reasons we should do more.
    Foremost, we have an outstanding faculty, military and 
civilian, who are well versed in the operations and needs of 
the Air Force and the Department of Defense. The fruits of 
their research pay a direct and immediate dividend to our 
Nation's security. Additionally, a strong research program 
underpins the excellence we bring to bear in the classroom.
    Finally, strengthening AFIT's reputation as a premier 
research organization increases its attractiveness to the 
potential students and faculty among whom we find ourselves 
increasingly in competition from our sister institutions.
    By using research funding to sponsor student tuition we 
leverage the faculty and facilities of AFIT and AFRL while 
creating a talent pool many of whom will elect to continue 
their efforts right here in the Miami Valley. Additionally, 
reaching out more to civilian students is a natural progression 
for AFIT as the Air Force continues to transform itself by 
focusing our military members on expeditionary operations and 
relying more on the total force including civilians to execute 
traditional state-side mission.
    Here I think our involvement in the Dayton Area Graduate 
Studies Institute, or as we all know it DAGSI, is most 
constructive. With DAGSI there already exist a structure that 
provides scholarships and brings students to AFIT. I envision a 
natural synergy as we grow research funding to augment DAGSI 
scholarship funds. More students means more research and more 
research funding which together better enables AFIT to sustain 
recent growth.
    Additionally, the diversity of programs offered among the 
institutions of the DAGSI coalition provide an opportunity for 
the Air Force to broaden the educational experience of AFIT 
students in consonance with the Air University goal of 
producing expeditionary airmen ready to deploy, operate, and 
communicate with people of other cultures in reaching any 
region of the world.
    Let me repeat, knowledge is power. It was knowledge that 
innovatively married Air Force Combat Controllers on a wooden 
saddle with a GPS receiver to guide the devastating destruction 
of the Taliban just a few weeks after September 11th. It was 
that knowledge that found Zarqawi and introduced him to 
whatever awaits him in the next life, courtesy of your U.S. Air 
Force and our Joint team.
    It is that knowledge that will allow us to penetrate and 
provide precise combat defense against any future adversary. 
And it will be knowledge that will sustain those who follow as 
they battle unanticipated threats to our Nation's security 
whether through the air, space or cyberspace 90 years hence.
    I thank you for your support.
    [The prepared statement of Brigadier General Matthews 
follows:]

[GRAPHIC] [TIFF OMITTED] T5620.012

[GRAPHIC] [TIFF OMITTED] T5620.013

[GRAPHIC] [TIFF OMITTED] T5620.014

[GRAPHIC] [TIFF OMITTED] T5620.015

[GRAPHIC] [TIFF OMITTED] T5620.016

[GRAPHIC] [TIFF OMITTED] T5620.017

[GRAPHIC] [TIFF OMITTED] T5620.018

[GRAPHIC] [TIFF OMITTED] T5620.019

    Mr. Turner. I appreciate your connection of what you do 
here directly to what is going on on the battle field of today. 
When I read your paragraph making that connection, I got 
goosebumps and I did again when you said it. It is absolutely 
what Americans see on Fox News and CNN--the advantage the 
United States has. Many times we forget that it is the result 
of direct work that is being done here at Wright-Patterson Air 
Force Base or other research areas that are necessary in order 
for us to be ahead and in order to be able to defend ourselves 
so I appreciate how you are highlighting that.
    Representative DeWine, I thank you for being here also. I 
know that not only are you no stranger to testifying. Certainly 
being in the House of Representatives you have been a leader in 
receiving testimony. I appreciate your commitment to Wright-
Patterson Air Force Base because on a State level you have been 
a strong advocate for Wright-Patt.
    The private/public partnership that represents DAGSI I know 
is not the only private/public partnership in which you're 
involved in making sure that the State is a supporter of what 
is the largest single-site employer in the State. Your 
knowledge and expertise that you have garnered by your work at 
Wright-Patterson Air Force Base I know enhances our success at 
the State level so thank you for being here today.

                 STATEMENT OF HON. KEVIN DEWINE

    Mr. Dewine. Super. Thank you. Mr. Chairman and 
Congresswoman Schmidt, thank you for holding this hearing today 
and for providing me the opportunity to testify about the Air 
Force Institute of Technology and its consortium with the 
Dayton Area Graduate Studies Institute.
    My name is Kevin DeWine and I represent the 70th House 
District in the Ohio House of Representatives, which includes 
most of Wright-Patterson Air Force Base all except for this 
museum right here. Mr. Chairman, as the base's principal 
representative in the Ohio House, I want to thank you for your 
strong record of leadership and support for Wright-Patterson 
Air Force Base, particularly last year during the BRAC process. 
I also want to recognize the entirety of Ohio's congressional 
delegation, including Congresswoman Schmidt, especially 
Congressman Hobson for its tireless work to protect and enhance 
Ohio's varied and diverse military defense installations.
    As you may know, and as many of you know, Wright-Patterson 
Air Force Base is the largest single-site employer in the State 
of Ohio with about 22,000 employees and hundreds of millions of 
dollars spent every year on construction, equipment, supplies, 
and local contracts. The base has an estimated impact of almost 
$3 billion a year which is why most of us pay a little bit of 
attention to what goes on over here.
    Ladies and gentlemen, it is no surprise to any of you that 
Ohio's economy is changing. In order to ensure that we are 
ready to meet the challenges of the new economy, we need to 
better prepare our work force of today and tomorrow by giving 
the tools and skills necessary to compete for high-tech, high-
paying jobs.
    In the legislature my colleagues and I recognize this and 
we are actively working to provide today's students with an 
education that prepares them for future success. To that end we 
are looking at ways to increase the number of students who 
pursue degrees in the STEM disciplines: science, technology, 
engineering, and mathematics. We know that these fields 
represent growing trends and by increasing the number of 
graduates in these areas we can provide the types of employees 
that companies are looking for today and tomorrow. Notably, 
this is part of DAGSI's mission.
    Since it is creation in 1994 DAGSI's mission has been to 
increase and improve the quantity and quality of graduate, 
educational, and research opportunities, particularly in the 
STEM disciplines, and to promote economic development in Ohio.
    Working closely with AFIT it has become a critical 
component of our emerging high-tech economy by providing a 
needed focus on highly specialized fields of research.
    DAGSI allows member schools to combine resources including 
faculty and facilities to meet the evolving needs of the Air 
Force and to offer greater value to their students as well as 
our community.
    Since its inception, the State of Ohio has provided more 
than $50 million for the DAGSI/AFIT consortium demonstrating 
the deep and long-term support of AFIT and the Air Force by the 
State of Ohio.
    The intellectual capital brought to Ohio and developed 
within AFIT has become an important resource as we continue the 
pursuit of a technology based economy. It is a key asset in our 
effort to keep Dayton and Ohio in the forefront of technology 
development with its near 1,000 students and a faculty of close 
to 700.
    Keep in mind in this case, a ``student'' is usually an Air 
Force officer and is equivalent to a high-value, high-wage job 
in terms of economic development. AFIT's presence in Ohio 
represents a significant positive economic impact.
    As you well know, and has been highlighted already, AFIT 
has been threatened by two previous BRAC processes. In both 
instances, the base closure commission rejected the proposals 
to close AFIT, in part, because we have been able to articulate 
the success story that we have created in Dayton for AFIT 
through DAGSI.
    Our success has been rooted in meeting the needs for high-
quality graduate technical education while recognizing today's 
budget realities. This unique consortium creates a best of 
breed education that meets the changing needs of today's war 
fighter while providing significant economic development and 
intellectual benefits for our region and for Ohio.
    We in the Dayton region, home to the Wright brothers and so 
many other technology pioneers, are proud of our heritage. We 
know, however, that we cannot rest on the achievements of the 
past. We need to show that we are still home to creativity and 
cutting-edge technologies. The DAGSI and AFIT partnership has a 
decade-long track record of benefiting the Air Force and the 
State of Ohio. It is in the best interest of all of us that we 
continue to foster the success of this partnership now and for 
years to come.
    Thank you again for holding this hearing on this important 
component of our Nation's defense and Ohio's changing economy. 
I would be happy to take any questions when the chairman deems 
appropriate. Thank you.
    [The prepared statement of Hon. Kevin DeWine follows:]

    [GRAPHIC] [TIFF OMITTED] T5620.020
    
    [GRAPHIC] [TIFF OMITTED] T5620.021
    
    [GRAPHIC] [TIFF OMITTED] T5620.022
    
    [GRAPHIC] [TIFF OMITTED] T5620.023
    
    Mr. Turner. Thank you, Representative DeWine.
    Dr. Curran, I also want to thank you for taking your time 
to be here today, especially on a Saturday. I want to thank you 
for your leadership in continuing the history of the University 
of Dayton looking beyond its campus.
    Dr. Curran. Thank you.
    Mr. Turner. Your university has a long history of taking 
responsibility for ways to contribute to the community. 
Certainly your partnership in looking at ways to develop the 
NCR property around you is a great example of that, the 
redevelopment along Brown Street, the neighborhood 
redevelopment and revitalization that has occurred around Miami 
Hospital and, of course, DAGSI and your UDRI here at Wright-
Patterson Air Force Base. We appreciate you being here and 
hearing about your participation in this.

                    STATEMENT OF DR. CURRAN

    Dr. Curran. Thank you. Mr. Chairman, Representative 
Schmidt, I would like to thank you for the opportunity to 
address you this morning. My name is Dan Curran and I am the 
President of the University of Dayton. The University of Dayton 
is a Catholic University founded in 1850 by the Marianist 
religious order and, at over 10,000 students, it is the largest 
private university in the State of Ohio.
    The university has a well-earned reputation for academic 
excellence and a national reputation for high-caliber research. 
It is these two traits that I would like to discuss with you 
here today, specifically, in terms of how the University has 
leveraged these sources of pride, as well as educational 
partnerships, to meet the needs of the Wright-Patterson Air 
Force Base, the U.S. Air Force, and ultimately our Nation's 
defense.
    To speak to the matter before us today, the University is a 
proud partner with AFIT. Through the recent BRAC processes, the 
significance of having an institution like AFIT in our midst 
became clear to the entire Dayton region. through making the 
case to keep AFIT at Wright-Patterson Air Force Base, Federal, 
State, and local leaders realized that there were numerous 
educational opportunities to not only strengthen AFIT, but to 
enhance the learning opportunities for students drawn to the 
Dayton Region from all over the country and, in fact, across 
the world.
    The Dayton Area Graduate Studies Institute, DAGSI, plays a 
central role. DAGSI is a consortium of graduate education 
schools including AFIT, University of Dayton, and Wright State. 
Ohio State and the University of Cincinnati are affiliate 
members while Miami and Ohio University are associate members.
    Dr. Downie, the Director of DAGSI, can best answer the 
questions you have on membership levels.
    The University's educational partnership with AFIT through 
DAGSI builds on a long and beneficial partnership with the Air 
Force that has taken place since the late 1940's. In 1956, 7 
years after UD secured the first Wright-Patterson Air Force 
Base contract to translate aircraft flight-load data, the 
University of Dayton Research Institute, commonly referred to 
as UDRI, was born.
    Since then the UDRI has become a globally recognized leader 
in research and development of technologies which have not only 
advanced science but benefited mankind. The UDRI performs 
approximately $70 million in research annually and is ranked 
second nationally in materials research according to the 
National Science Foundation.
    UDRI remains headquartered at the University of Dayton but 
has significant operations at Wright-Patterson Air Force Base 
where we have about 140 employees; Robins Air Force Base, 
Arlington, Virginia; and Washington, DC, as well as Utah. I 
would like to take the opportunity to add that the UDRI will 
celebrate its 50th anniversary on August 23rd.
    Through UDRI and the UD School of Engineering the 
University has been involved in a number of research areas 
critical not only to the Nation's defense, but the development 
of new technologies that can have significant commercialization 
opportunities. Some of these areas include nanotechnology, 
alternative fuels, advanced materials, computational 
aerodynamics, systems analysis, electro-optics, non-destructive 
inspection, and aging systems sustainment.
    I think the key to our relationship is what it brings to 
students. Currently the UDRI employs about 250 students, 40 
percent undergraduate, 60 percent graduate. Dozens of these 
students are located on the base. The ability to have UD 
students and DAGSI students to do world-class Air Force 
research is really the key to building a high-caliber group of 
employees in the future.
    The presence of student researchers on the base and working 
on Air Force initiatives resulted in a number of graduates 
taking Federal jobs and also jobs with defense contractors in 
the area. Such students have experience with Federal 
Government, work backgrounds specifically related to the 
research at hand, and often have the necessary clearances to 
start working immediately.
    Wright-Patterson Air Force Base has been a critical 
component for UD, as well as other members of DAGSI, in 
developing the engineers and scientists to ensure America's 
international leadership in science and technology, as well as 
to ensure ever-increasing experts in complicated defense areas.
    The University looks forward to being a partner in the 
relocation of the Air Force's aerospace medicine operations. 
Through partnerships built on and around DAGSI's success, as 
well as local universities' longstanding experience in the 
areas of medicine, nursing, and human factors and 
effectiveness, we can mirror the successes we have seen in 
other areas in the aerospace medicine area.
    In closing, I would like to thank the Ohio delegation, in 
particular Representatives Turner and Hobson, for all the 
things that they have done for the research labs, AFIT, and the 
base over the years. Your help has been invaluable, especially 
last year during the BRAC process. Once again, I thank you and 
I look forward to any questions you have.
    [The prepared statement of Dr. Curran follows:]

    [GRAPHIC] [TIFF OMITTED] T5620.024
    
    [GRAPHIC] [TIFF OMITTED] T5620.025
    
    [GRAPHIC] [TIFF OMITTED] T5620.026
    
    [GRAPHIC] [TIFF OMITTED] T5620.027
    
    Mr. Turner. Thank you.
    Dr. Thomas, obviously our focus is on AFIT and the support 
of Wright-Patterson Air Force Base but inherent in all the 
testimony we have from Representative DeWine and Dr. Curran and 
yourself is the impact that your focus has on the economy of 
our community. Prior to your testimony I just wanted to 
highlight an example of the way that is all interrelated.
    My sister while attending Wright State University in the 
graduate masters degree program in biology worked for UDRI in 
the labs here at the Air Force Base in the composite area 
ultimately graduating from Wright State with her masters in 
biology and then continuing to work with UDRI in the labs and 
working on research and development with respect to the 
structure of insects and what might be learned from material 
structures and how that might be applied to airplanes.
    As Dr. Curran was saying, one of the most important things 
that you do, and that I appreciate also for Wright State 
University and the University of Dayton, is the ability for 
investment in people and the knowledge base that occurs for our 
community.
    I want to thank you for your dedication to that and it 
certainly is inherent in your testimony of the fact that in the 
end although we are talking of supporting Wright-Patterson Air 
Force Base and the ways that we can have ingenuity, we also are 
talking about changing people's lives and their abilities and 
their educational stature. I want to congratulate you and 
Wright State on your efforts in that.

                    STATEMENT OF DR. THOMAS

    Dr. Thomas. Thank you, Mr. Chairman and good morning, Mr. 
Chairman and also Member Schmidt. That is a wonderful example. 
I will have to capture that for the future.
    My name is Jay Thomas. I am the Vice President for Research 
and Dean of the Graduate School at Wright State. I am very 
pleased to have this opportunity to testify about Wright State, 
its interactions with AFIT, and its participation in the Dayton 
Area Graduate Studies Institute.
    Next year in 2007 Wright State will celebrate 40 years of 
service to the Dayton region, the State of Ohio, and the 
Nation. Wright State has grown up with Wright-Patterson Air 
Force Base as a supportive neighbor, influencing program 
development, partnering in research, and hiring our graduates. 
Particularly close ties have developed with AFIT and the Air 
Force Research Laboratory.
    In engineering and computer science these ties have been 
facilitated and strengthened by the development, beginning in 
1994, of the Dayton Area Graduate Studies Institute.
    Wright State's College of Engineering and Computer Science 
offers undergraduate and graduate programs keyed to Air Force 
needs. Program such as electrical and mechanical engineering 
featuring research emphasis such as target recognition and 
design optimization which have received continuous Air Force 
funding and benefited from those close working relationships 
between Wright State faculty members and Air Force staff.
    Wright State has offered one of the few programs in the 
country in Human Factors engineering, a program targeting 
human-machine systems including aircraft pilot performance. 
Wright State also has programs in its School of Medicine and 
College of Science and Mathematics such as environmental 
toxicology and cognitive science that interact strongly with 
the AFRL. Wright State owns and operates a virtual environment 
CAVE which is housed in the AFRL Human Effectiveness 
directorate.
    You have heard about DAGSI from President Curran. We'll 
learn more from Dr. Downie in the follow testimony. Among the 
three of us I am the only one who has been in my position since 
pre-DAGSI times--too long--so I can comment on some of the 
history.
    In 1993 the Deans of Engineering at Wright State, the 
University of Dayton, and AFIT were called together by Dayton 
region industry leaders and urged to cooperate rather than 
compete, and to develop world class programs. We have worked to 
do so. AFIT has always offered unique programs keyed to Air 
Force needs.
    Since the 1993 time period, the University of Dayton has 
become a national leader in Materials research and Wright State 
has developed leading programs in computer science and related 
computational design. These complement each other as well as 
AFIT programs providing the region a breadth of programs of 
recognized excellence.
    At the same time that regional leaders were encouraging 
cooperation, the Ohio Board of Regents, the State agency that 
coordinates higher education, embarked upon several initiatives 
to promote program excellence and collaboration. The OBR 
realized that carrots were better than sticks to achieve such 
goals and had demonstrated a willingness to fund such 
initiatives.
    With this background, the three engineering deans began to 
meet regularly, in fact every week for more than a year, to 
develop DAGSI. They learned that collaboration is hard work, 
must be built on a foundation of trust, and must be win-win for 
all involved. Through this process, Wright State, and the 
University of Dayton, became much better acquainted with AFIT.
    Wright State very much values its interactions with AFIT. 
These take many forms. Through DAGSI engineering students at 
either school can take sources at the other, courses that would 
not be available at their home institution. For doctoral 
programs, there is a practice of including an external DAGSI 
faculty member on each doctoral student's dissertation 
committee.
    AFIT faculty members bring unique knowledge and 
perspectives to these activities which greatly benefits the 
student. Such sharing of faculty expertise also promotes 
quality of the research and the overall doctoral experience. At 
the same time, the interaction of faculty members around a 
specific research topic enables collaboration on future 
research projects.
    These programmatic features are of mutual benefit to Wright 
State and AFIT. For AFIT, State and regional resources leverage 
AFIT's Federal funding and bring an extra measure of excellence 
to AFIT programs.
    It has been demonstrated that DAGSI is an effective 
organization in bringing Ohio University resources together to 
leverage Federal resources at Wright-Patterson Air Force Base. 
DAGSI has provided student support, research funding, 
educational enrichment such as course sharing, and numerous 
collaborative programs.
    An opportunity over the next several years is the expansion 
of aerospace medicine at Wright-Patterson Air Force Base as 
mandated by the recent BRAC Commission along with the 
establishment of the Institute of Aerospace Medicine to include 
the Air Force School of Aerospace Medicine.
    Wright State University offers the oldest civilian Master 
of Science in Aerospace Medicine in the United States as well 
as the Master of Public Health and numerous biomedical science 
graduate programs. Wright State University is well positioned 
to lead an expansion of DAGSI to meet the education and 
training needs of the expanding aerospace medicine work force 
at Wright-Patterson Air Force Base.
    Thank you very much and I look forward to answering any 
questions you might have.
    [The prepared statement of Dr. Thomas follows:]

    [GRAPHIC] [TIFF OMITTED] T5620.028
    
    [GRAPHIC] [TIFF OMITTED] T5620.029
    
    [GRAPHIC] [TIFF OMITTED] T5620.030
    
    [GRAPHIC] [TIFF OMITTED] T5620.031
    
    [GRAPHIC] [TIFF OMITTED] T5620.032
    
    [GRAPHIC] [TIFF OMITTED] T5620.033
    
    Mr. Turner. Thank you, Dr. Thomas.
    Dr. Downie, I appreciate in your testimony that you have 
given us some great facts and figures on the process and how it 
works and its impact. Also you have a great coordinating job to 
do so we look forward to hearing about DAGSI and your work with 
it.

                    STATEMENT OF DR. DOWNIE

    Dr. Downie. Thank you. Good morning, Mr. Chairman and 
Congresswoman Schmidt. My name is Elizabeth Downie. I am the 
Director of the Dayton Area Graduate Studies Institute, which 
you have heard a lot about already this morning, and I am here 
to testify about the DAGSI consortium and AFIT's role and 
impact as a partner of the consortium.
    I appreciate the opportunity to speak before you today.
    DAGSI is a not-for-profit consortium of graduate 
engineering and computer science schools at UD, Wright State, 
and AFIT. The consortium is unique in that it unites a private 
institution, a stated-assisted institution, and a Federal 
institution in a successful partnership that has enhanced the 
educational and research base as well as the technical work 
force in the region.
    Our impact is not limited to Dayton, however. The 
University of Cincinnati, the Ohio State University, Miami 
University, and Ohio University are affiliated with DAGSI and 
our major research program, which supports AFRL, is open to any 
Ohio research university. DAGSI's mission is to promote 
education-based economic development in Ohio through the 
development and support of world-class graduate engineering and 
computer science education and research programs.
    DAGSI has been funded by the State of Ohio, through the 
Board of Regents, since 1995. DAGSI's funding supports student 
and faculty research in technologies aligned with several 
initiatives critical to the future of Ohio and its economy. We 
have two major program areas: First, we offer competitive, 
merit-based scholarships and fellowships to Masters and 
Doctoral students in engineering and computer science at UD, 
Wright State, and AFIT. We support part-time as well as full-
time students, which means that employers in the region can 
leverage their education and training dollars by having their 
engineers pursue a graduate degree through DAGSI.
    Most of our students are Ohio residents when they apply for 
a scholarship, but due to growing awareness of DAGSI out there 
we also are drawing students from across the Nation, 
particularly through our fellowship program. Typically we 
support close to 200 students annually.
    Second, we sponsor a joint research program between DAGSI 
and the Air Force Research Laboratory at Wright-Patterson AFB. 
Each year, AFRL provides DAGSI with research topics, and 
students and faculty from any Ohio research university may 
submit proposals for research on these topics. Students who are 
awarded a research fellowship are required to work on base in 
the AFRL labs; therefore, they must be U.S. citizens. Currently 
we have 40 active projects in this program.
    DAGSI's key objectives are: To train and retain advanced 
engineering students in the State of Ohio, with the goal of 
creating a critical mass of talent in targeted technologies; to 
fund graduate students who study and undertake research in 
areas critical to Ohio's future; and to work collaboratively 
with research institutes, private and government laboratories, 
corporations, and others seeking to build Ohio's capabilities 
in key technology focus areas.
    Let's look at several aspects of DAGSI and its programs in 
terms of the value brought by the consortium to various 
stakeholders. In particular, I will focus on AFIT's 
participation in the consortium as well as the impact of DAGSI 
on the Air Force to illustrate the successes of the program.
    One, through DAGSI and our Cooperative Research and 
Development Agreement [CRADA] with AFIT, civilian students now 
can enroll at AFIT. Over the years, 37 percent of DAGSI 
students at AFIT have been nongovernment students. These 
students, who would be in school elsewhere if not for DAGSI, do 
research that ultimately supports the warfighter. In DAGSI's 
elite Fellowship program, AFIT has attracted an impressive 10 
of the 26 students enrolled to date. They make that decision 
based on their visit to AFIT. All civilian students with 
exceptional academic and research credentials who have chosen 
to pursue their doctoral studies at AFIT and contribute to the 
warfighter.
    Two, through DAGSI, engineering or computer graduate 
students enrolled at AFIT, UD, or Wright State can cross-
register for classes at the other partner schools. This 
capability broadens and enriches the students' programs of 
studies and builds in collaboration. Many AFIT students have 
taken classes at the other schools and many students at the 
other schools have taken courses at AFIT as long as they are 
U.S. citizens. Also, AFIT faculty have served as dissertation 
committee members for UD and Wright State students, and 
likewise AFIT students have had committee members from the 
other schools.
    Here is what one student, now an aerospace engineer 
employed by the Air Force, has to say about opportunities 
arising from consortium collaboration: ``DAGSI's relationship 
allowing the three Dayton-area graduate schools to cross-enroll 
has been the only way I would have been able to complete my 
degree in my field, because none of the three schools alone 
offered classes necessary for my major. With DAGSI's help, I've 
been able to craft a program that is unique but valuable to my 
employer, the USAF.''
    Three, 26 percent of DAGSI's scholarship awards have gone 
to students connected with the Air Force when they start their 
graduate program and employed by the Air Force when they 
graduate. Most are at Wright-Patt so DAGSI has had a tremendous 
impact on Ohio's largest single-site employer.
    Four, nearly two-thirds of DAGSI graduates are employed in 
Ohio, contributing to the economy with their technology 
knowledge and skills. Close to 40 percent of these are employed 
at Wright-Patt or by defense contractors in the region.
    Five, DAGSI has sponsored 93 projects in the AFRL/DAGSI 
research program since the program's inception 7 years ago. In 
addition to the seven DAGSI members and affiliates, several 
other Ohio universities, Case Western, Kent, Toledo, and Akron, 
have had teams funded through this program. AFIT faculty and 
students collaborated in 35 of these projects--that's 38 
percent of the total--14 as the lead institution and 21 as a 
partner.
    Clearly, AFIT has been a vital contributor to university 
research collaborations across the State of Ohio. This program 
not only has benefited AFRL by effectively expanding the lab's 
research base and tying it to the university community in Ohio, 
it has fostered collaboration among individual faculty members 
from different institutions.
    Many of these collaborations have continued after getting 
their start in our program, with follow-on funding obtained 
from the Air Force and other government agencies. Faculty early 
in their careers at AFIT as well as the other schools have been 
able to build a research base with colleagues in the region, 
leading to a positive impact on tenure decisions.
    In closing, DAGSI is a model of collaboration that we 
believe others can look to for replication. Through the success 
and contributions of our graduates, DAGSI's impact reaches far 
beyond the universities themselves. Thank you for providing 
this opportunity to give you my perspective on DAGSI and AFIT's 
role as an integral, vital member of the partnership.
    [The prepared statement of Dr. Downie follows:]

    [GRAPHIC] [TIFF OMITTED] T5620.034
    
    [GRAPHIC] [TIFF OMITTED] T5620.035
    
    [GRAPHIC] [TIFF OMITTED] T5620.036
    
    [GRAPHIC] [TIFF OMITTED] T5620.037
    
    [GRAPHIC] [TIFF OMITTED] T5620.038
    
    [GRAPHIC] [TIFF OMITTED] T5620.039
    
    [GRAPHIC] [TIFF OMITTED] T5620.040
    
    [GRAPHIC] [TIFF OMITTED] T5620.041
    
    [GRAPHIC] [TIFF OMITTED] T5620.042
    
    [GRAPHIC] [TIFF OMITTED] T5620.043
    
    Mr. Turner. Thank you, Dr. Downie.
    I realize that we are benefiting from the patience from all 
the panel members that we had to move this hearing to a later 
time and you have personal schedules so I want to thank you for 
your patience and your cooperation.
    I have made a commitment to Dr. Downie because of her 
schedule that we would ask Dr. Downie questions first and allow 
her to excuse herself with Dr. Curran and Dr. Thomas filling in 
for coordinating questions that we might have after its 
operations. We will begin first with questions to Dr. Downie 
from Congresswoman Schmidt and then I will ask my questions for 
Dr. Downie and then you can be excused. Gentlemen, if you don't 
mind, we will then turn to you for questions.
    Ms. Schmidt. Thank you, and thank you for some very 
compelling testimony. I have a couple of question for you, Dr. 
Downie. Does DAGSI plan to expand the consortium and are there 
plans to integrate DAGSI associate and affiliate member schools 
into the course sharing program?
    Dr. Downie. Well, we have no immediate plans to expand. I 
think, first of all, through the AFRL DAGSI program we already 
do have an impact across the State through participation by 
several other universities beyond those in this region. I think 
if one divorces the course-sharing capability from the awarding 
of scholarships, we are certainly open if there is a demand to 
sharing courses, cross-registration, among all our members and 
beyond.
    Logistics is the obvious hurdle so there really hasn't been 
a tremendous demand for Ohio State students, UC students, to 
take courses here and vice versa. We are certainly open to it 
and if there is a telling reason, a demand out there, 
especially perhaps as distance learning opportunities spring 
up, we would certainly be open to setting up an administrative 
process to allow for that sharing of courses.
    Ms. Schmidt. Thank you. One more question. DAGSI is a 
tremendous cooperation. Have other organizations in other 
States inquired about or followed the DAGSI consortium model to 
support their local areas?
    Dr. Downie. I believe so, and I am going to need some 
assistance maybe from General Matthews. I hope I am not putting 
you on the spot.
    General Matthews. No.
    Dr. Downie. I believe that AFIT has worked with educational 
institutions around other Air Force bases and have established 
some similar working relationships.
    General Matthews. Yes. I can address that later, if you 
like, or now.
    Ms. Schmidt. Fine, in the interest of time. Do you have any 
suggestions, Dr. Downie, on how other organizations in other 
States could accomplish the same as DAGSI for the benefit of 
their State and local universities and the military?
    Dr. Downie. Well, we are happy to provide whatever 
information we can on DAGSI and how we got through the blood, 
sweat, and tears that Dr. Thomas has spoke about in making this 
happen. We have talked, and we have talked very preliminarily 
but we haven't carried it very far yet, but we have talked 
about capturing how DAGSI was established and what was needed 
to get it going and what our key value is and sort of wrapping 
that up as a model to offer to other organizations to take and 
run with.
    I think there is opportunity there and that is something as 
we move forward in the future because we will be revamping our 
business model, that is something that we are seriously looking 
at as a contribution that we can make to other regions. It 
takes time for reputations to be built and that is happening 
with DAGSI. The vision has always been there that we would be a 
national model for collaboration and now I think the word is 
getting out. I think as that happens it will be an opportune 
time for us to take that model and run with it elsewhere.
    Ms. Schmidt. Thank you. I yield back.
    Mr. Turner. Thank you. Dr. Downie, an important function 
obviously that DAGSI provides is funding and then the 
interrelationship between educational institutions. To what 
extent does DAGSI operate as a forum for the educational 
institutions to discuss areas in which they might have solely 
expertise or areas in which there are gaps that they might seek 
to provide additional educational opportunity?
    Dr. Downie. That is certainly a key aspect of DAGSI. It is 
an opportunity to take a look at us as a bundle and identify 
where we overlap and can be more efficient by eliminating some 
things where we do have gaps. If you look at what the focus 
areas and key majors at each of our institutions are, you do 
find kind of a natural grouping that is pretty distinct. We 
actually haven't had to do tremendous gap-filling and 
elimination of overlap because overtime I am sure it has 
evolved because of this collaboration to be this way where we 
don't overlap tremendously and we have synergies we can 
exploit.
    Dr. Curran. I would just add, the way I look at it, we are 
working closely with the labs and working closely with the labs 
we identify the emerging areas that we have to maintain. I 
think at that point all the faculties react to that and hear 
what the base needs, hear what the lab needs, and we start 
moving into that area. That leads into DAGSI so it is the 
interaction with the labs that is key and informs the 
universities where they have to go, both the members and the 
affiliates in the research area so it's a process of close 
interaction between the labs, the universities, and DAGSI.
    Mr. Turner. Doctor, the statistics you provided as an 
appendage to your testimony, of course, will be part of the 
record also and they are very impressive. I just wanted to 
highlight some of them. I think in your testimony you had 
already indicated that over 500 DAGSI students have graduated 
with advanced degrees.
    Then you go on to highlight that close to two-thirds of the 
graduates remain in Ohio and at least four of DAGSI graduates 
have started their own companies in Ohio and you give us the 
number of 40 percent as the estimate of those DAGSI graduates 
that are either working directly for Wright-Patterson Air Force 
Base or are working with defense contractors thereby continuing 
the capture of that knowledge base and its support for DOD.
    As an impressive economic engine you have then performed a 
return on investment of statistics where you indicate that more 
than $18 million in follow-on funding to date is new money to 
the State of Ohio with total project value of $32 million which 
far exceeds the investment by the State of Ohio. Could you talk 
about some of the ways that you can see the dividends that the 
return on investment expands for both our local community and 
for Ohio as these graduates enter our economy?
    Dr. Downie. I think success begets success. As an example, 
you mentioned specifically follow-on funding to seed money that 
DAGSI has provided through the AFRL DAGSI program. We fund 
teams of a certain size to do some preliminary work and get 
themselves far enough along to know whether their approach is 
going to work and that is going to attract more and more 
students through our program.
    Then as follow-on funding comes in, the teams will grow. 
Often times these ideas will then move closer to a product or 
service stage. There may be small business relationships, 
patents, invention disclosures that come out, and ultimately 
new business coming out of what started as a seed project 
through the DAGSI program. It is sort of a seed that grows and 
blossoms over time.
    It does take time but certainly as more and more students 
come here, we all hope that they continue to stay in the Miami 
Valley, or at least in Ohio, and contribute further to the 
economy but even though that leave the State it is actually 
good to export some of your talent because they take the word 
out that there is really neat stuff happening here.
    We generate more excitement and more people that want to 
come here go to school. Hopefully we'll keep them here and they 
will continue to contribute to the economy. I think of it as a 
seed that is growing and blossoming overtime and our success 
will continue to breed that continued success.
    Mr. Turner. Dr. Downie, thank you for your preparation of 
your testimony. Thank you for participating today and for your 
hard work at DAGSI to make certain that you contribute to what 
is a wonderful public/private partnership that we are 
highlighting today.
    Dr. Downie. Thank you.
    Mr. Turner. Thank you for being with us.
    With that we will turn to Congresswoman Schmidt's questions 
for General Bowlds.
    Ms. Schmidt. Oh, thank you. General Bowlds, what are some 
of the benefits of bringing AFIT graduates to AFRL immediately 
following the completion of their degrees?
    General Bowlds. The first thing you get from anybody who 
comes into the lab fresh out of a degree program is their 
degree is fresh. We are dealing with technologies that have 
certain life expectancy because some of those fields are moving 
so fast so having a student who has graduated and their diploma 
is fresh, they come right into the lab.
    Then you are getting the latest and greatest thinking on 
whatever technology area they might be in. I look at it as the 
other part of the ledger sheet, a return on investment the Air 
Force makes in those advanced degrees.
    Once you've got that advanced degree putting it to work is 
where the real payoff is so that is why we enjoy having those 
folks come. Plus in many cases they have done research that was 
for their master thesis or their dissertation that was part of 
the lab so they get to come into the lab and maybe finish that 
work that they started as a student so it's a very nice way to 
put that degree to work.
    Ms. Schmidt. And to followup on that, does the cooperation 
between AFIT and AFRL benefit the local work force?
    General Bowlds. I think it does because you get those 
students who stay in the area. Obviously that's people who are 
contributing to the local economy. Many times the research that 
they have started when they were a student and finished when 
they come to the lab is a new field, a new endeavor that takes 
the Air Force down a new path that in turn we have to 
capitalize and build new lab facilities, bring in new 
researchers and reach out to the local university communities 
you have heard this morning to capitalize on. It does grow that 
local community.
    Ms. Schmidt. Yield back.
    Mr. Turner. I think General Matthews can attest to this. I 
think one of the most fun moments, if there are fun moments 
during any BRAC review process, was when we went up to the roof 
of the AFIT building. When we got up to the top of the roof and 
we looked out over the sea of buildings that represent Wright-
Patterson Air Force Base, the discussion turned to the 
integration between the research labs and AFIT.
    You could hear from the BRAC commissioners that were here 
the shift in tone of their expectation because I think that 
their expectation when they raised the issue of the graduate 
programs would be that they might be a stand-alone building 
with stand-alone programs and stand-alone students that could 
be picked up and moved anywhere.
    When we got to the roof of AFIT and looked out over the 
research labs and over Wright-Patterson Air Force Base it was 
clear that the campus wasn't the building that we had our first 
meeting on but the campus was Wright-Patterson Air Force Base. 
There were several aspects of that which you highlighted in 
your testimony that I think are important to focus on.
    The first thing I am going to ask you is the fact that AFIT 
students are employed in research functions that are occurring 
at the research labs both in directing them in research and 
thesis they should undertake. The cost effective benefit of 
that for the research labs, in addition to what you indicated, 
if they come pretrained if they then stay, represented both an 
educational benefit and a cost-effective benefit for the 
research labs. Could you speak about that for a moment?
    General Bowlds. Sure. We would always like to have more 
research dollars for the lab. The problems that are out there 
presenting our warfighter and our Air Force far outweigh the 
amount of dollars that we have. So for us to be very effective 
and be very efficient and get the most out of those dollars, we 
have to figure out how to do partnerships. We have to figure 
out how to collaborate with companies, with universities, with 
our home court, the students at AFIT.
    What I get from that partnership bringing those students 
from AFIT into the lab to do research is two things. I get the 
ability to capitalize on fresh, young talent and it doesn't 
come out of any one budget. We share that burden, both General 
Matthews and I.
    The other thing that you really get is some of these things 
that we're asking our researchers to do, some of the fields we 
are in you need brand new fresh ideas and the young students 
who come in who are at AFIT who come into the lab bring that 
fresh look to an old problem that may be the key to an answer.
    When you take that fresh young mind and couple it with a 
mentor who has been around and know where the problems are, 
where the skeletons are, things you can't do, you can really 
then start to solve problems very, very quickly. You get to 
come about with new technologies that people weren't thinking 
about. The sum of the parts is better than the individuals is 
what we get by having those students come into the lab.
    And, in turn, having researchers from the lab go into the 
university to go over to AFIT to teach because, and I'm going 
to put words in General Matthews' mouth, but I am sure he would 
like to have more professors than his payroll allows and so it 
allows him to get the expertise I got and keep people fresh on 
both sides of it. It is both hands scratching each other's back 
that we get from it. I hope that answers your question.
    Mr. Turner. Yes. In fact, you went into what was my second 
question and that is the fact that you have staff from the 
research labs that then take on professor duties at AFIT 
itself. One of the things in addition to just straight 
staffing, as you mentioned, and resources that I think might be 
a benefit from that and I would like you to speak about is that 
many times people say that when you go to teach a subject 
matter within which you work that you also not only are 
refreshed in the review that you undertake in teaching it but 
also that you learn more about the process yourself in teaching 
it to someone else.
    Then there is the important function of the transfer of 
technology, making certain that the knowledge that you have 
here of a work force that has deep experience is passed on as a 
baton to the next generation and those individuals who are 
coming forward. Could you speak of the importance of that 
cross-pollination that occurs by your staff taking on teaching 
responsibilities at AFIT?
    General Bowlds. Certainly. Having a researcher who is fresh 
in the field who knowledge base is most current is how we can 
ensure that the research they do is then going to be world 
class. The term we use in the lab in the game-changing, that we 
are going to get game-changing kind of results out of that 
research.
    My experience through colleagues and stuff is that one way 
a researcher may go and get their knowledge base back up to 
date is they take a sabbatical. They disappear for a period of 
time. Maybe go to a university or go to an industry and 
disappear for a year while they get up to date on the latest 
and greatest in both the body of knowledge, the research 
techniques, and what has gone on.
    From the lab perspective I lose that individual for a year. 
Not that they don't come back that much more productive but I 
lose them for a year. The better way, or the way that works 
equally well, is what you just talked about, is having those 
researchers in the lab go over to AFIT and teach the new 
students into a field of materials or electrical engineering 
because it helps them in their mind refresh what it is that 
their expertise is.
    They have to get current on the latest body of knowledge 
because they are going to teach it. Plus they get asked the 
hard questions. They get asked the hard questions from those 
young minds that says, just like our children do, ``How come? 
How come we have to do it that way?'' It forces them to be on 
their toes and sharp. They do that before they go teach a class 
at AFIT.
    They are gone for an hour a couple times a week plus the 
time they have to go to get into it but I still have them in my 
home court advantage. They are still doing research back in the 
lab and I think that is probably the start of that relationship 
of bringing those young researchers, those students from AFIT 
then back into the lab to help that researcher move their 
endeavor along.
    Mr. Turner. Congresswoman Schmidt, questions?
    Ms. Schmidt. Yes, I would like to go to the Honorable Kevin 
DeWine.
    Dr. Downie illustrated the fact that 75 percent of DAGSI 
graduates have degrees and experience directly relevant to the 
Third Frontier technologies. As we all know, Ohio has made a 
commitment to Third Frontier. I have a two-part question. Will 
this project benefit from Third Frontier dollars from the State 
of Ohio?
    Mr. DeWine. Mr. Chairman, Congresswoman Schmidt, I think 
the answer is yes. Whether it is directly or indirectly I might 
look down here to my partners to my left on direct benefit. 
Surely when we see investments in collaborations amongst 
universities on high-tech, Third Frontier initiatives, those 
are things that certainly benefit the economy.
    They benefit the intellectual capital that exist here. We 
think that is a nice partnership, another program that partners 
well with the AFIT DAGSI consortium. All of those things are 
things that are going on here. There are Third Frontier 
programs being run through Wright State, being run through the 
University of Dayton. Again, it is the collaboration of the 
infrastructure of the faculty and the students and the private 
sector doing that work here whether it's directly through DAGSI 
or whether it's through the Third Frontier that I think is 
acredive to the technological and educational gain of the 
region.
    Ms. Schmidt. I would like another question if I may.
    Mr. Turner. Sure. Please.
    Ms. Schmidt. As you and I both know, Ohio is a term-limited 
State and you have a wealth of knowledge in this which is very 
beneficial to this program but, unfortunately, nothing lasts 
forever. My concern with projects like this is when the next 
group comes in to govern the State of Ohio where are we going 
to have the security that this level of commitment will 
continue? Is there any mechanism that you can establish in 
order to ensure that whoever follows in your footsteps will be 
as committed to this program as you obviously are?
    Mr. DeWine. Mr. Chairman, Congresswoman Schmidt, term 
limits, as we have often talked about, there's good and bad. 
You and I were beneficiaries of term limits. We were able to 
get elected in 2000 and be able to spend some time working 
together in the Ohio House of Representatives in part because 
of term limits. I recognize that I am in the general assembly 
today because of term limits.
    I also recognize that soon I will be out of the general 
assembly because of term limits. I think that is a problem with 
term limits that affects not just this program. It affects 
every last bit of every program that has any sort of State 
support. Clearly from the first time I got elected Wright-
Patterson Air Force Base has been something that I have spent a 
great deal of legislative time both trying to understand 
because it is huge.
    It is organizationally complex and it is difficult to 
understand so you have to commit your time and your energy to 
be able to understand all the moving parts here. I have spent a 
great deal of time doing that. Part of what we have to do is 
figure out how to continue that. As it relates to DAGSI and the 
AFIT partnership I think the great thing is you have wonderful 
community partners in the universities who take a very active 
role in working with their local members of the general 
assembly.
    So not only does it become my job to pass the baton to 
whoever follows me, I think then we also as a community have to 
rely on folks like President Curran and Dr. Thomas and the 
members of that board, as well as our members of the Air Force 
to make sure that things don't get lost, that things don't lose 
priority, and that we keep a focus on the things that should 
move and should be supported because they will move our economy 
forward. That is clearly the case with this AFIT and DAGSI 
partnership.
    Ms. Schmidt. Thank you.
    Mr. Turner. General Matthews, I am going to give you an 
opportunity to do a commercial. On page three of your testimony 
you speak of General Moseley's statements of the fiscal 
constraints that the Air Force will be facing as a result of 
the ongoing war on terror, modernization, and its impact on Air 
Force personnel cuts. You indicated for us that AFIT will have 
to adjust to fiscal realities.
    You also indicate underlying in your comments the 
importance of investing in our educational programs. If you 
would, take a moment and give us your description of why we 
should, of course, look first to our educational programs for 
our future as we look to investment opportunities.
    General Matthews. Yes, sir. Again, Mr. Chairman and 
Congresswoman Schmidt, I appreciate this opportunity to address 
the committee because of the education requirements for the 
U.S. Air Force are very important to Secretary Wynne and our 
Chief articulated in their Letter to Airmen back in April.
    Again, the top three priorities are, first, to win the war 
on terror. Also important is recapitalizing our fleet which is 
aging significantly. Also critical as part of the 
transformation year for us is the development of our airmen of 
which advanced academic education is a critical part. I look at 
it as the seed corn.
    I was in the Pentagon on September 11, 2001. What I 
witnessed in the National Military Command Center firmly 
imbedded in me an appreciation of the preparation of our 
soldiers, sailors, and Marines. I guarantee you nobody who was 
in that National Military Command Center had gone through a war 
college class preparing for that moment for that eventuality.
    What they had gone through was a lifetime of training and 
education which broadly prepared them for any eventuality which 
occurred which included that day and they performed 
magnificently in taking control of our airways, securing our 
Nation, and making sure that we were well prepared for those 
actions that occurred just a few short weeks later. I think it 
is interesting and that is why I put in my testimony in 
retrospect to look at how quickly we were able to quickly react 
to that situation and take down the Taliban in Afghanistan, and 
also prepare forces for the eventual war in Iraq.
    That is why I look at education as being critically 
important, the preparation of our airmen because you can't 
predict what the future is going to be 10, 15, 20 years from 
now. I can't tell you what September 11, 2011 is going to be 
like, or September 11, 2021 is going to be. I will tell you 
that there will be threats to national security of the United 
States. The U.S. Air Force will be prepared because of the 
preparation of our airmen largely through the education of 
those airmen through advanced education.
    The problem we face obviously today is the fact that the 
Air Force is downsizing. We have already announced personnel 
cuts, 57,000 positions, 40,000 full-time equivalence, again is 
a price that we feel we must pay now again to pay for the 
needed modernization of our fleet and also to sustain the 
ongoing cost of war which we must win.
    What we are working with our headquarters on is a process 
of refining exactly what that requirement is and what portion 
of that the Air Force Institute of Technology will sustain 
through our graduate education programs. That is in a state of 
transition right now. We were in a program I referred to as 
Vector Blue that was a vision of our former Secretary Roach and 
our former Chief of Staff General Jumper which had a marked 
increase of the student through-put through AFIT over the last 
4 years or so, over a 70 percent increase in our production.
    We have leveled off that program currently which is 
appropriate given the fact that we are actually downsizing the 
force and we are not going to have the force that existed at 
the time the program was instituted. Nonetheless, the Air Force 
is firmly committed to the advanced education requirements of 
the force and we are revisiting exactly what those requirements 
are and we will continue to refine them. Again, I see great 
opportunities in the DAGSI consortium to help provide a new 
model of how we will provide that education for our airmen in 
the future.
    Mr. Turner. Since you have had a great deal of experience 
with this as a model, can you tell us ways in which DAGSI might 
be able to be improved or be more effective in assisting AFIT?
    General Matthews. First of all, it has been very useful, as 
Dr. Downie indicated earlier, as a model that we have been able 
to export to other areas. Most notably at Kirkland Air Force 
Base in New Mexico, University of New Mexico we have entered 
into a DAGSI-like arrangement where we actually provide 
aeronautical engineering classes to students at the University 
of New Mexico to augment something that doesn't currently exist 
within their system. That is a win-win situation for the Air 
Force because then we provide that expertise back to the Air 
Force and their graduates to our laboratory and other 
facilities and defense-related industries in New Mexico.
    We also have entered recently in the DAGSI-like arrangement 
with Loyola Marymount in Los Angeles in the Systems Engineering 
Program where our students at Los Angeles Air Force Base can 
take our courses and then transfer those over to their 
university for completion of a masters degree which is of great 
benefit to the Air Force.
    It is hard for me to envision improvements. Perhaps I would 
like to see more opportunities to bring even more civilian 
students into the Air Force Institute of Technology because, 
again, I think that is of benefit to the Air Force and our 
integration of the total force which includes civilians. 
Because of the downsizing in the Air Force we have a 
significant need for those in uniform to serve an expeditionary 
role which means a lot of deployments overseas often times into 
hostile combat arenas.
    That has put a pressure on the number of students that were 
able to bring to the Air Force Institute of Technology in 
uniform. I would envision a time in the future where some of 
the state-side requirements for those who are graduates of AFIT 
programs could be fulfilled by civilians where they are 
currently fulfilled by people in uniform.
    We would still like to provide that education because of 
our focus, defense focus, military focus, Air Force focus at 
the Air Force Institute of Technology. DAGSI is a useful 
construct to provide scholarship funds to bring those civilian 
students to the Air Force Institute of Technology. Expansion in 
that area would be of benefit, I think, to the Air Force and to 
the country.
    Mr. Turner. Conversely, the Federal partnership and role in 
this do you see, especially as you are looking to Monday and 
the end of your involvement with AFIT, are there things at the 
Federal level that we should be doing differently that would 
have aided you or you think would aid AFIT in the future other 
than, of course, just funding that you see we might be able to 
address as either impediment or enhancement to what you do?
    General Matthews. As I mentioned in my written testimony, 
we are reviewing the business model we currently have at the 
Air Force Institute of Technology. We are a fully appropriated 
activity, as you know, though we do have a small number of our 
students specifically from sister services, Army, Navy, Marines 
who come and now because of recent legislation largely 
sponsored by the Ohio delegation, we are able to collect and 
retain tuition from those sister services and roll that money 
back into the Air Force Institute of Technology.
    I see AFIT transforming similar to Naval Post Graduate 
School to where a portion of the school is, in fact, a fee for 
service. We can debate about what that percentage actually 
ought to be but if we are going to bring more civilians in, I 
would like a streamlined mechanism where we able to collect and 
retain the tuition to offset cost associated with those 
students coming into the Air Force Institute of Technology.
    Now, exactly what those measures might entail I don't know 
right now. In fact, we have IPT, a pining team together which 
is reviewing that and we anticipate bringing forward to our 
headquarters a package listing a series of needed changes in 
policy or other perhaps restrictions that we currently have to 
more fully encompass a student body I envision in the future of 
AFIT so, again, we can not only educate these folks but we get 
paid for doing it. I think that is useful for the Air Force and 
useful for the country, too. It would help offset Air Force 
costs because, again, our resources are very scarce.
    Mr. Turner. That is a very excellent point. Thank you.
    Congresswoman Schmidt, do you have a question?
    Ms. Schmidt. I have one more and it is for Dr. Curran and 
Dr. Thomas.
    What would happen to your respective universities if this 
public/private partnership ended as far as intellectual 
capacity bringing in new students to be prepared in science and 
math for the future, as well as the financial foundations of 
the universities?
    Dr. Curran. Well, I certainly think a relationship with Air 
Force Research Labs over the years has led us into areas of 
research that the University of Dayton probably would not have 
pursued. For example, we mentioned that composites were ranked 
No. 2 in the Nation. I don't know if we would be as strong in 
that area because of something driven by our relationship again 
with the labs.
    I can probably say the same thing for our more currently 
developed area of a nano characterization, nano research, that 
we moved forward with the community and with the base to 
establish a research program there. That probably would not be 
at UD campus. Also, our students who participate through DAGSI 
get a very unique exposure to be at the labs, some of them at 
the labs and the base. You simply don't have that opportunity 
to be exposed to this type of research.
    They learn a lot about the Air Force culture and they are 
aware of positions opening up. I think that is one of the 
challenges that many of the positions at the base and at the 
military facilities are at times classified. The research is 
not well known. Top scientists do not get the exposure so 
through DAGSI and AFIT I think we get a lot of students in.
    Again, I think it keeps you on the cutting edge. Again, in 
nano materials I don't think we would getting the National 
Science Foundation Funds we would today if we would not move 
forward with the questions by the labs and the various 
directorates.
    Ms. Schmidt. Thank you.
    Dr. Thomas. Yes, Mr. Chairman, Congresswoman Schmidt, the 
DAGSI program is of tremendous benefit to Wright State, 
particularly in the College of Engineering in computer science. 
If that were to go away or be decreased substantially, it would 
be a major impact on our research funding in those areas. We 
would have to make up from other sources.
    If AFIT were to go away to California or elsewhere, it 
would take away from our faculty a large number of very 
valuable collaborators that help us with our research programs 
and help our students with their doctorate dissertations. We 
have heard about the interaction between AFRL and AFIT. 
Certainly Wright State Faculty and students benefit from that 
by working in the teams on base in AFRL with AFIT students and 
with AFIT faculty so I think that would all be very serious for 
us.
    Dr. Curran. Can I add one thing? I do think you have to 
take it a step beyond the universities themselves, again in the 
area of composites. Again, we follow the lead. The lab has a 
discussion. We establish an expertise in this. We then go after 
research money at Federal times, but it's what happens in the 
next step.
    If you look at logical progression in the date and area, 
you can point to the national composite center, something that 
I do not think would be in this area if it were not for 
following the lead of the labs at the various directorates. I 
think it is a key step in the tech commercialization process in 
this region. Again, there is a number of companies that are 
based in composites and other areas. I think it is very 
important not for us, the universities, but the community 
beyond.
    Ms. Schmidt. Thank you.
    Mr. Turner. Dr. Curran, Dr. Thomas, I am going to ask you 
guys three questions that Dr. Curran can begin with and then, 
Dr. Thomas, if you would follow on.
    Dr. Curran, you began the discussion of this when you 
highlighted your national ranking as No. 2 in materials 
research by the National Science Foundation. First, do you see 
that each of your universities have developed expertise that 
you believe has distinguished you nationally, thereby 
attracting students and other interest in the university beyond 
just the research that is being done at the research labs and 
at AFIT? In other words, what is the dividend affect of the 
specific expertise that you developed through DAGSI?
    Second, will you speak of the coordinated efforts between 
the two universities and AFIT as to the type of programming 
that is provided? Third, in your testimonies many of you 
highlighted some of the success stories. Please just give us 
some of your anecdotal thoughts on the importance of this 
program. We will begin with Dr. Curran.
    Dr. Curran. I think it has been very important for us to 
track students. Again, we have a different portfolio of 
graduate offerings than most institutions. Clearly students 
look at UD to do different things.
    I think it has been equally, if not more, important for the 
recruting of top-level faculty to come to the university. 
Earlier I referenced the area of nano characterization. We 
brought in an endowed professor in this area, again, reacting 
to identified needs by directorate. I do not think he would 
have come to the University of Dayton if he could not have 
worked with AFIT in the labs.
    This was the key to recruting this individual. I can give 
repeated examples of that whether it be in fuels, be it in the 
area of aging aircraft. It is unique opportunities not only for 
the students but for the faculty. It really is an advantage for 
us out there.
    The coordinated efforts between the two universities. There 
was a question earlier about can you duplicate this in other 
areas. I think we have just a tremendous relationship with 
Wright State. We do collaborative research. We recognize each 
other's strengths. We tend to have discussions about not 
duplicating resources. Again, I think that is a challenge for 
higher education in the future.
    We have this wonderful relationship with Wright State and I 
would add Sinclair College also that allows us to talk through 
issues and then go out to the community. That is not a group we 
talked about a lot. The Dayton Development Coalition and other 
entities in the community come together and talk about a 
logical progression. Again, it has been a wonderful 
relationship and continues to be a good relationship. You asked 
for an area of expertise.
    Composites is one again. We have moved ahead. We are 
nationally known. We are asking important questions. We have 
been involved in Third Frontier projects. We were the research 
institute's work that I think led to the first 
commercialization of a project under the Third Frontier and 
establishment of actual company around that. Again, I think it 
has made us very compositive. Jay can speak to Wright State's 
Third Frontier initiatives.
    As a community we look for the possibility of again funding 
around aerospace medicine, a mission that is being vetted now. 
What can we do to contribute to the advancement of that mission 
on the base? Again, it is about cooperation. It is about 
requiring researchers who come to DAGSI to be on the base, to 
teach the courses with AFIT on the base. That is one of the 
logistical challenges.
    I know you asked about opening this up. I think in the 
research area we certainly should be opening up and we do have 
relationships with universities around the State. But, again, I 
think we just have to be responding to this great relationship.
    One other question you asked earlier, Representative, you 
asked Kevin. What would you do to keep this relationship? Let 
me respond to it. I would invest in DAGSI. I think the State 
should invest in DAGSI. If you look at the budget, Liz would 
never say this herself but it has been a static budget for a 
number of years. As the various missions are bedded down at the 
base because of BRAC, I think we are going to have to seriously 
look at how we can improve DAGSI and possibly diversify DAGSI. 
In order for this relationship to continue, it is that 
relationship between DAGSI and AFIT that is very important and 
what we should be investing in.
    Jay, I will turn it over to you.
    Dr. Thomas. I mentioned that the formation of DAGSI was a 
win-win since 13 years ago, which is a long time in the history 
of Wright State. One of our wins in that process was the 
establishment of a new doctoral program in the College of 
Engineering in six research areas that were key to our 
interactions with the base and also with UD, AFIT, and other 
schools in Ohio.
    That program was begun in 1996 and finally approved by the 
regions in 2001. It now has over 100 students. It is 
approaching something like 20 graduates a year. That is a large 
doctoral program. That has been very important to us over the 
years.
    We are very proud also to have the Wright Center of 
Innovation called Data Ohio in data management which has been 
funded now for about 3 years. It is a good opportunity for 
economic development for the region. The Third Frontier is not 
a research program. It is an economic development program so 
organizations like DAGSI that provide some research funding are 
very important to sort of produce the seed corn that leads to 
the economic development.
    We have now through the Third Frontier programs and Data 
Ohio been able to expand our College of Engineering. We have a 
new addition to our Russ Engineering Center of 50,000 square 
feet for Data Ohio being open in about 2 weeks. It is just 
about finished. If you drive down Colonel Glenn Highway you 
will see a large glass structure that I think should be a 
mirror of the technological expertise of the area. We will have 
a grand opening for that building on October 27th, I believe it 
is. You all will hear from us for that shortly. That's just a 
couple of things that have benefited Wright State through DAGSI 
and also AFIT partnership.
    Mr. Turner. Thank you. Representative DeWine, I am going to 
ask you the question I asked General Matthews which is you have 
had just a tremendous amount of expertise as you have made 
certain you know what is going on at Wright-Patterson Air Force 
Base. As you noted, the complexity of Wright-Patt as the 
different organizations that are here and how they interrelate. 
So you have expertise in not only advocating on the State level 
successfully for what the State needs to do, but also knowledge 
on what needs to be done on the Federal level.
    I am going to ask you the same question that I asked 
General Matthews of thoughts you might have of things that we 
need to do on the Federal level to support this. After you 
answer I am going to give anyone the opportunity who wants to 
give us closing comments for the record to give us those 
closing comments and then we will be adjourning.
    Representative.
    Mr. DeWine. Thank you, Congressman. I think I will defer my 
remarks to echo General Matthews. I would never pretend to be 
more knowledgeable than General Matthews on the things that can 
be done to improve to the benefit of AFIT and DAGSI so I will 
defer to General Matthews.
    I will tell you, though, Congressman, I think this is a 
good time and a good opportunity for DAGSI. As Dr. Curran said, 
this is an opportunity for us to kind of figure out what the 
future of DAGSI is, to diversify it. And I think a good 
opportunity for us to invest a few more State dollars into this 
alliance and this consortium partly because of what we hear 
from our partners over here today.
    As we have taken some time over the past 2 years in the 
general assembly our focus has been very singular, and that is 
to try to transform and revitalize Ohio's economy. Step one has 
been to try and change the tax code that has long served as a 
disincentive for investment. I believe we have done that so we 
are creating that environment where people will not be driven 
away from Ohio because of things like tax codes.
    Our next step, as you and I talked about a little bit 
before this hearing got started, I think the next step quite 
honestly for us is to focus on the STEM disciplines: science, 
technology, engineering, and mathematics. Those are the 
disciplines that are going to drive our economy for the future. 
Those are things that are going to focus our limited State 
resources on a growing economy.
    I think this is a good time both in terms of getting some 
attention from the Federal level. I think this is also a good 
time for DAGSI to get some attention again from the State level 
and try to partner with DAGSI to a greater extent than it has 
in the past to support what we all know are significant 
resources and benefits to the Air Force, but also to the State 
of Ohio as well.
    Mr. Turner. Excellent. Again, I want to thank all of you 
for both your preparation, for your time today, and for your 
patience and the time being moved as a result of the late night 
that Congress had last night.
    Whenever we have a hearing, I always want to give people 
opportunity to put anything else on the record in the form of a 
closing comment that they might have. As you have heard other 
people answer questions, it may have caused you to think of 
something that was important that you would like to have added. 
Or perhaps there is a question that you had prepared for that 
we did not ask that would have been important for us to ask 
that you might want to have responded to get on the record of 
this hearing today. With that before I close the hearing, I do 
want to ask if there is anyone who would like to embellish 
their testimony today?
    General.
    General Bowlds. Just some closing comments. First off, Mr. 
Chairman, Congresswoman Schmidt, thank you very much for the 
opportunity. What makes Air Force Research Lab a viable 
institution is the collaboration we do on the DOD level with 
the national labs there, the NASA, the Navy, the Army, industry 
collaborations. But collaborations that we have talked about 
here this morning with AFIT and the collaborations that we get 
from the local university with DAGSI are very, very important 
to us to keep our researchers fresh, to keep our ideas fresh 
and keep the lab an exciting place to work.
    You have heard it mentioned several times here today the 
Institute of Aerospace Medicine, which we are soon to spin up 
here and we are in the throes of figuring out how to make that 
happen, I believe is going to introduce a whole new chapter to 
that collaboration. Maybe to your comment, sir, in the change 
of leadership what kind of viability does organizations like 
DAGSI have?
    My brief introduction to it is it is a win-win for all 
participants. Those kind of organizations have staying power as 
the leadership changed because those who come behind them 
recognize the importance of things like DAGSI, the importance 
of those partnerships. When you throw something into the mix 
like the Institute of Aerospace Medicine, I think that will 
only accelerate the level of collaboration and opportunity that 
we will see for the date and region and for Ohio in general. 
Thank you again very much for the opportunity to share my 
thoughts with you today.
    Mr. Turner. Thank you very much.
    General Matthews.
    General Matthews. Again, Mr. Chairman, Congresswoman 
Schmidt, again, thank you for this opportunity to address a 
committee. My family and I are greatly saddened to be leaving 
the Dayton area. It is my first opportunity to visit Wright-
Patterson Air Force Base despite being in the Air Force 20 
years. My wife is a mid-western girl and she especially hates 
me now that with this first opportunity we are going to have to 
leave again. But I am also looking forward to heading back a 
little closer to my roots in North Carolina which is the actual 
birth place of aviation, I would point out.
    Mr. Turner. Now he says that.
    General Matthews. Can we get that stricken from the record? 
Is that possible?
    Ms. Schmidt. Is that true?
    Mr. Turner. General, go ahead. We will tolerate that, 
especially since you have done such an incredible job.
    Ms. Schmidt. Mr. Chairman, don't our license plates say the 
birth place of aviation? Didn't we pass that, Mr. DeWine?
    Mr. Turner. Thank you for giving us that bit of levity. 
Continue.
    General Matthews. I do appreciate and have especially come 
to appreciate the genius behind DAGSI over my last year here 
and the diversity and the opportunities it provides and 
marrying my own graduate educational experience. Even though I 
was enrolled in the engineering school I was able to take 
classes as part of my major degree in the School of Public 
Policy which greatly enhanced my effectiveness in my next 
assignment working on your staff during the time of the first 
Gulf War.
    In fact, I recently was corresponding to a former squad and 
commander of mine who was my civil engineering squad and 
commander and an AFIT graduate who is currently in Baghdad 
helping rebuild the Iraqi Air Force. The thing that struck me 
is something that would enhance his capability was the broader 
appreciation of the environment he works in. In fact, our 
university initiative I mentioned in my opening remarks is to 
provide our expeditionary airmen greater skills, language, and 
cultural awareness.
    I think there is an opportunity here for DAGSI, again, 
because of the relationship we have. This is not an area of 
expertise for the Air Force Institute of Technology. But I do 
think there is a blending of these skills between science, 
technology, engineering, and mathematics along with language 
and culture which DAGSI offers a model of how we might be able 
to bring those skills in without having to recreate that 
capability in this operation here. I look forward to those 
opportunities and the potential for that is something we will 
be exploring with AFIT in the future in alignment with our 
university initiative in that area.
    Again, a small representation of that was a recent 
competition we had with our management program where three of 
our graduate students in their intermediate developmental 
education program participated in a State Department 
competition which they won first place in helping the State 
Department in human resources development case study against 
universities such as University of Wisconsin, Georgetown, and a 
little place up here called Ohio State. Sorry we beat them out 
but the fact is we are still an Ohio institution so the State 
of Ohio should still be very proud as I am of our graduates and 
their time here.
    Again, thank you for this opportunity to address you.
    Mr. Turner. I appreciate again your leadership of AFIT. I 
know you will fully understand one of my favorite members of 
the Armed Services Committee is Representative Hayes from North 
Carolina. He and I have come to what I think is a distillation 
of this dispute between North Carolina and Ohio and that is 
that, as we are all aware, Ohio contributed the intellect and 
North Carolina contributed the wind. Thank you for your 
support, though, for North Carolina.
    Anyone else for closing comments?
    Mr. DeWine.
    Mr. Chairman, Congresswoman Schmidt, thank you both for 
holding the hearing today and coming here to learn a little bit 
more about the important relationship and benefits of DAGSI and 
AFIT. Thank you both for your commitment and your dedication to 
the men and women in uniform. Thank you for coming.
    Ms. Schmidt. May I add just one thing? Thank you so much 
for your commitment to Ohio State and to the Wright Brothers in 
the place of aviation.
    Mr. DeWine. Thank you.
    Dr. Curran. I thank you for the opportunity also. It has 
been a pleasure to be here to talk really about a model of 
collaboration. This is my 5th year in Dayton and I was 
surprised to see a community that always came together around 
issues. This issue in particular the relationship between 
research labs and the universities is unique. We identify 
issues and we move forward. DAGSI and AFIT then give us the 
educational opportunities and the research opportunities, the 
seed money. We talked a lot about that today.
    I think the next step in the process then is so important 
for the Dayton region is organizations like the Dayton 
Development Coalition, Wright Brothers Institute, and certainly 
our delegation in Washington and Columbus. These ideas, these 
opportunities could pass by certainly if we did not have the 
followup with the delegations.
    The seed money from DAGSI is important for research but the 
followup to establish the program in a directorate is very 
important. Finally, I think our greatest challenge in this area 
is how we successfully commercialize that. Again, this will be 
a reflection of collaboration also. Again, I thank you for 
being here and it has been a wonderful afternoon.
    Dr. Thomas. I would just like to comment that I think we 
are facing the next 5 years of tremendous excitement for the 
Dayton region as we move through the BRAC process both in 
aerospace medicine and censors and to comment that Wright State 
is fully committed to supporting the Air Force through these 
times and looks forward to increase the interactions with AFRL 
and future aerospace medicine and other new units as well as 
AFIT. Thank you very much for being here and for your support.
    Mr. Turner. Thank you very much. I would like to thank our 
distinguished panel of witnesses for their participation today. 
I appreciate your willingness to share your knowledge, 
experiences, and your thoughts with us. I would also like to 
thank you for your participation and, again, your patience for 
the time being moved.
    Clearly there is an exceptional amount of coordination 
between all the institutions. As we have heard today, the 
relationship between the Federal, State, and local governments 
and the private institutions is a positive one for the country 
and Ohio and, most importantly, our soldiers and airmen in the 
field. For that reason it is important that we continue to work 
together to further the goals of the Air Force and our local 
institutions of higher education.
    In the event there may be additional questions that we did 
not have time for today or the members who were not able to 
make it today, we would like to submit the record will remain 
open for 2 weeks for submitted questions and answers.
    I also want to thank the people of the Air Force Museum for 
hosting us today, especially at this time where we have the air 
show and they are faced with so many logistics. They have 
always been incredibly helpful whenever we have had an event 
here and I want to thank them.
    With that we will be adjourned.
    [Whereupon, at 1:14 p.m. the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
